September 28, 2010

GREGORY C. MARTIN
PURCHASING AND SUPPLY MANAGEMENT SPECIALIST

SUBJECT: Transmittal of Report – Accenture Labor Floor Check for FY 2009
         (Report Number CA-CAR-10-013)

This report presents the results of physical observations (floor checks) conducted
by the Defense Contract Audit Agency (DCAA) of labor hours charged by
Accenture LLP (Accenture) during the week of August 17, 2009 (Project Number
09YO048CA001). As part of a comprehensive audit of Accenture, DCAA
performed floor checks to determine that employees were actually at work, were
performing in their assigned job classifications, and were charging their time to
the appropriate jobs. The floor checks also determined whether the contractor
consistently complied with established timekeeping system policies and
procedures for recording labor charges. DCAA selected 52 employees from a
universe of approximately 30,000 Accenture employees in the U.S. whether or
not they worked on federal government contract(s). Accenture used labor
resource pools to assign work to employees.

The U.S. Postal Service Office of Inspector General (OIG) did not request this
audit. DCAA provided this report as a courtesy because the universe included all
Accenture employees who worked on contracts with the Postal Service. We note
that DCAA currently does not have an external opinion on its quality control
system as required by Generally Accepted Government Auditing Standards 3.55.
The most recent external quality control review opinion expired on August 26,
2009. The OIG Audit Operations staff will conduct an annual review of DCAA
audit reports as part of our internal quality assurance reviews.

The DCAA found three weaknesses in the contractor's timekeeping system:
inadequate timekeeping practices, labor reconciliation issues, and lack of
adequate management review of employees’ final timesheets. The contractor's
timekeeping policy applies to both commercial and federal contracts. Accenture
employees were not properly completing timesheets and were not complying with
company policies and procedures. A total of 12 of 52 employees (23 percent) did
not comply with Accenture's timekeeping practices and Accenture management
did not adequately review the timesheets. Further, DCAA found numerous
incidents where labor distribution payroll records did not reconcile with
timesheets.
Overall, the contractor did not concur with the findings and recommendations
mainly because the universe contained employees who did not work on
government contracts. However, any employee in Accenture's resource pool
could be assigned to work on a federal government contract. DCAA will follow up
on the findings during its current floor check audit of the contractor for FY 2010.

This report may contain information that is proprietary, sensitive or of a
commercial nature, which, under good business practice, we would not release
to the public. Accordingly, if the OIG receives a Freedom of Information Act
request for this report, it will coordinate its response with the contracting officer
before releasing any portion(s) of the report. If you have any questions or wish to
discuss the audit report in more detail, please contact Monique Colter, audit
manager, or me at 703-248-2100.
      E-Signed by Judith Leonhardt
    VERIFY authenticity with ApproveIt




Judith Leonhardt
Director, Supply Management


cc: Susan M. Brownell
    Susan A. Witt
    Corporate Audit and Response Management
